<html>
<title> - NOMINATION OF HON. JULIA A. CLARK</title>
<body><pre>[Senate Hearing 113-443]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-443

 
                   NOMINATION OF HON. JULIA A. CLARK

=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON

               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             SECOND SESSION

                               __________

NOMINATION OF HON. JULIA A. CLARK, TO BE GENERAL COUNSEL, FEDERAL LABOR 
                          RELATIONS AUTHORITY

                               __________

                             APRIL 29, 2014

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the

        Committee on Homeland Security and Governmental Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
89-5270                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

               John P. Kilvington, Acting Staff Director
            Deirdre G. Armstrong, Professional Staff Member
  Stephanie A. Wilkinson, Counsel, Subcommittee on the Efficiency and 
      Effectiveness of Federal Programs and the Federal Workforce
               Keith B. Ashdown, Minority Staff Director
         Christopher J. Barkley, Minority Deputy Staff Director
               Andrew C. Dockham, Minority Chief Counsel
                  Sally Anne Braeuer, Minority Counsel
  Darien B. Flowers, Minority Research Assistant, Subcommittee on the 
   Efficiency and Effectiveness of Federal Programs and the Federal 
                               Workforce
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Tester...............................................     1
    Senator Portman..............................................     2
Prepared statement:
    Senator Tester...............................................    13

                               WITNESSES
                        Tuesday, April 29, 2014

Hon. Julia A. Clark, Nominated to be General Counsel, Federal 
  Labor Relations Authority
    Testimony....................................................     3
    Prepared statement...........................................    14
    Biographical and financial information.......................    18
    Letter from the Office of Government Ethics..................    33
    Responses to pre-hearing questions...........................    35


                   NOMINATION OF HON. JULIA A. CLARK

                              ----------                              


                        TUESDAY, APRIL 29, 2014

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:32 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Jon Tester, 
presiding.
    Present: Senators Tester and Portman.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. I will call to order this hearing of the 
Senate Committee on Homeland Security and Governmental Affairs.
    We convene this afternoon's hearing to consider the 
nomination of Julia Clark to serve as the General Counsel of 
the Federal Labor Relations Authority (FLRA).
    Julia Clark has filed responses to a biographical and 
financial questionnaire, answered prehearing questions 
submitted by the Committee, and has had her financial 
statements reviewed by the Office of Government Ethics (OGE). 
Without objection, this information will be made part of the 
hearing record,\1\ with the exception of the financial data, 
which are on file and available for public inspection in the 
Committee offices.
---------------------------------------------------------------------------
    \1\ Information referred to by Senator Tester appears in the 
Appendix on page 18.
---------------------------------------------------------------------------
    Julia Clark currently serves as General Counsel (GC) for 
the Federal Labor Relations Authority and has been in this 
position since 2009. Julia started her legal career at the 
Department of Justice (DOJ) and brought over 20 years of labor 
law experience to the FLRA. Thank you, Julia, for joining us 
today.
    Senator Portman obviously is not here yet. He is en route, 
and when he gets here, we will certainly respect his 
opportunity to give an opening statement, but we will continue 
on with our Committee agenda.
    Our Committee rules require that all witnesses at 
nominations hearings give their testimony under oath. Ms. 
Clark, would you please stand and raise your right hand.
    Do you swear that the testimony you are about to give to 
the Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Ms. Clark. I do.
    Senator Tester. Let the record reflect that the witness 
answered in the affirmative.
    With that, I will turn it over to Senator Portman for his 
opening statement.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Mr. Chairman. You just went 
through the hardest part of this hearing. [Laughter.]
    I appreciate the fact that Chairman Carper and Ranking 
Member Coburn asked us to hold this hearing, and Senator 
Tester, as usual, took responsibility. We thank you for being 
here to answer some of our questions. We want to tell you that 
we are here to ask you questions and be sure you are the right 
person for the job, but we are impressed with your public 
service. I know you went through this back in 2009, so you have 
experienced a nomination and a confirmation process.
    This is a critical juncture for the Federal Labor Relations 
Authority, because after a lot of years of significant backlogs 
and low employee morale, it appears that the agency is finally 
turning things around. Back in 2009, when you were just 
starting at FLRA, there was a backlog of nearly a thousand 
unfair labor practice (ULP) complaints and appeals cases. I am 
told that backlog has now been almost completely eliminated. I 
want to hear about that issue from you. If you are confirmed, 
my understanding is one of your top priorities would be to 
continue to process cases in a timely and efficient manner.
    One of the most important factors, as we see, in addressing 
the backlog was the Office of General Counsel's (OGC) decision 
in 2010 to amend its regulations to authorize alternative 
dispute resolution (ADR), and I want to talk to you about that. 
I think that is a good approach to save litigation time and 
valuable resources, so in my view that is a good policy change 
and we want it to continue. I want to ask you about that.
    I would say, even with these successes, the recent history 
of the FLRA has not been without its challenges. We are all 
aware the Authority came in dead last on the Partnership for 
Public Service's ``Best Places to Work in the Federal 
Government'' survey in 2005, 2007, and 2009. It seems like you 
have made some strides in terms of your internal management and 
now you rank No. 8 out of 29 small agencies for employee 
satisfaction. I was concerned to see employee satisfaction fall 
in a number of important areas between 2012 and 2013, including 
in the ``performance-based rewards and advancement'' area, and 
the ``effective leadership'' area.
    I am sure we will be able to talk about some of these 
issues and can agree that more can be done to ensure efficiency 
and effectiveness fulfilling your responsibility at FLRA to 
foster lawful and productive relations between Federal 
employees and government managers. We look forward to 
discussing those issues and other issues with you this 
afternoon.
    Thank you, Mr. Chairman.
    Senator Tester. Thank you, Senator Portman. I appreciate 
your comments.
    Ms. Clark, you will have 5 minutes for your oral statement. 
Please note that your entire written statement will be a part 
of the record. With that, you may begin.

 TESTIMONY OF THE HONORABLE JULIA A. CLARK,\1\ NOMINATED TO BE 
       GENERAL COUNSEL, FEDERAL LABOR RELATIONS AUTHORITY

    Ms. Clark. Thank you, Chairman Tester, Ranking Member 
Portman. It is a privilege to have the opportunity to appear 
before you again and report on the accomplishments of the 
Office of the General Counsel since I was here in 2009.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Clark appears in the Appendix on 
page 14.
---------------------------------------------------------------------------
    As Senator Portman mentioned, at that time when I was last 
here, the General Counsel's position had been vacant for a 
prolonged period of time, resulting in a daunting backlog of 
complaint and appeals cases. At that time, we suffered a 40 
percent reduction in the OGC staffing level. There were many 
vacancies. Our case processing performance was at a historic 
low. Our public education and information resources were 
virtually nonexistent. And, sadly, our employee morale was at 
an unacceptable low point.
    And while I identified these deficiencies as priorities 
when I was here in 2009 and I vowed to address them, I could 
not know then what I know now about OGC career employees' 
capability and commitment to addressing these looming 
challenges.
    The Office of General Counsel Regional Office employees 
provide labor relations dispute resolution services directly to 
Federal employees, union representatives, and management 
representatives. They are the first point of contact. OGC 
employees handle over 90 percent of all the cases filed at the 
FLRA. Their commitment to the OGC mission and tireless efforts 
were key to our success. They have my deep respect and 
appreciation and deserve the credit for OGC's remarkable 
accomplishments over the past 5 years.
    To support them, when I came to the agency, I decided early 
to direct our limited hiring ability to front-line regional 
office vacancies. I also adopted recommendations from our 
career staff to streamline case processes and make more 
efficient use of technology. Most importantly, as Senator 
Portman reflected, we decided to integrate the alternative 
dispute resolution opportunities into all stages of our case 
processes.
    Our ADR processing has proven to be particularly effective 
and enduring and the results are measurable and positive. Our 
ULP case processing has improved by every measure. Our 
productivity is up 25 percent. Our timeliness improved from 49 
percent to 68 percent. At the same time, our ULP case filings 
increased over 25 percent and now are holding steady at about 
4,600 per year.
    Our employee morale improved quickly and dramatically, 
although there is always room for improvement, and I am looking 
forward to the opportunity to talk about what we can do to 
continue to improve.
    But, the Office of General Counsel is now the leading 
source of information regarding Federal unfair labor practice 
and representation case processing law and practice. We have 
comprehensive manuals, resources, case law outlines, policy 
guidance, and self-paced tutorials that are available to the 
public 24/7.
    Also, our regional office employees provide classroom-style 
education and training on a regular basis and also in response 
to joint labor-management requests. Over the last 5 years, that 
staff, who is also processing ULP cases and representation 
cases, managed to train 15,000 participants in training 
sessions nationwide.
    We have also accomplished what we have accomplished by 
leveraging resources through interagency agreements and 
collaborations to expand our education and ADR activities. 
Through a 2010 partnership with the Federal Mediation and 
Conciliation Service (FMCS), we developed training to support 
Executive Order (EO) 13522, and in those training sessions, in 
an 18-month period, FMCS and our regional office employees were 
able to train another 6,000 labor-management representatives in 
150 sessions. We developed that training into an online 
tutorial for folks who were not able to attend our sessions. 
That is still available.
    We have continued our partnership with the FMCS to support 
the mission of the National Council on Federal Labor-Management 
Relations. We have also entered into shared resource agreements 
with the Department of Veterans Affairs (VA) and the Department 
of Defense (DOD) to develop online training that addresses 
every aspect of the law and practice that we are responsible 
for. The wonderful thing about these shared resource agreements 
is that we were able to partner with much larger agencies who 
had instructional designers and technological studios, and 
provide the content so that there can be a neutral presentation 
of the kinds of information that managers, union 
representatives, and employees need. In addition to that 
partnership, the Office of Personnel Management (OPM) has 
posted our tutorials on their Human Resources University, so 
they are available 24/7.
    We still have ongoing challenges, the ones mentioned by 
Senator Portman, such as succession planning. We are a very 
small agency. Our hiring ability has been very limited. So, the 
development of new leaders has been a priority and is a 
challenge, but one that we have developed a strategy to meet.
    Also, managing to continue to maintain a high level of 
productivity and efficiency and morale is a challenge that is 
ongoing and that we have to pay attention to all the time.
    Our management culture that we cultivate and nurture is one 
that vigilantly examines our processes, reexamines them, looks 
for potential improvements, but also continuously engages our 
front-line staff in this deliberative process.
    I believe that the Office of General Counsel is well 
positioned to sustain and enhance its contribution to 
productive, stable, and efficient labor-management relations 
throughout the government. It would be an honor and a privilege 
to continue to lead the Office of General Counsel as we meet 
these challenges and serve the public interest.
    Senator Tester. Well, thank you for your testimony, Julia, 
and I am going to start my questioning with the standard 
questions, three in all, that we ask all nominees, then I will 
turn it over to Senator Portman for his.
    Is there anything that you are aware of in your background 
that might present a conflict of interest with the duties of 
the office to which you have been nominated?
    Ms. Clark. No.
    Senator Tester. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Ms. Clark. No.
    Senator Tester. Do you agree, without reservation, to 
respond to any reasonable summons to appear and testify before 
any duly constituted Committee of Congress if you are 
confirmed?
    Ms. Clark. Yes.
    Senator Tester. Thank you, and you may proceed, Senator 
Portman.
    Senator Portman. Great. Thank you, Mr. Chairman. Thanks for 
your indulgence.
    You talked a little bit about this in your opening 
statement and you have more even in your written comments, but 
getting back to the case backlog issue and how you got about a 
thousand complaints and appeal cases resolved that were subject 
to the backlog when you took the job in 2009, you say that a 
number of management factors, you believe, contributed to 
reducing the backlog. You talk about strategic hiring 
decisions, streamlined case processes, and more effective use 
of technology. However, you note that the Authority's 
alternative dispute resolution, ADR initiatives, and I am 
quoting you here, ``have proven particularly effective and 
enduring.''
    As I said earlier, I am supportive of ADR, particularly in 
this context, and I just want to know a little bit about why 
you think it works. You made a decision in the office to 
implement this new policy. Was this something that you decided 
to do, or was it something that your predecessor put in place? 
What has your role been at the Office of General Counsel in 
authorizing these ADR activities?
    Ms. Clark. The ADR activities that we engage in now 
required a change to our regulations. We reinstituted a 
regulatory policy that had been in place previously but was not 
in place at the time I came to the job. It was something that I 
intended to do and looked on very favorably, but consulted with 
career staff about their experience under those regulatory 
changes, both when ADR was permitted in the earliest stages of 
the processes and when it was prohibited, and I felt very clear 
that allowing for ADR early was the right thing to do and I 
authorized and directed that we go in that direction, which we 
did very quickly.
    Senator Portman. How important was that in terms of getting 
the backlog out?
    Ms. Clark. The backlog itself that occurred because of the 
General Counsel vacancy involved cases that had been fully 
investigated. Complaints had been authorized, but complaints 
had not been issued. And only by confirming and appointing a 
General Counsel could those cases go forward. ADR played a big 
role in resolving that backlog quickly, because at that point, 
the career staff was in the position to work with the agencies 
and the unions to resolve them.
    But the real difference in terms of instituting ADR as a 
regular part of our work was allowing for ADR to begin at the 
moment a case walks in our door, at the moment a charge is 
filed. A charge is the first point of contact in our regional 
offices. The regulations permitted our field agents to offer 
ADR services at the moment when they begin investigating a 
case. The offer is voluntary. It makes clear to both the 
management and the union representatives that engaging in 
alternative dispute resolution is at their choice.
    But the offer is not a one-time deal. Not only was a 
regulatory change made, our agents were trained in ADR 
techniques and ADR techniques as they apply to our process so 
that while they are involved in the case process, 
investigating, taking witness statements, they are continuously 
open to and offering ADR services and looking to what the 
underlying dispute is, what are the interests of the parties, 
and how can we resolve whatever the concerns are at the 
earliest possible stage, and hopefully with the least amount of 
formal case processing. And many cases are resolved simply by a 
private settlement in this way.
    Senator Portman. Do you think more training of labor 
representatives and management representatives would be helpful 
to encourage even more use of ADR?
    Ms. Clark. I absolutely do. And, in fact, our partnership 
with the Federal Mediation Conciliation Service has been 
extremely helpful in this regard. That agency has a statutory 
responsibility with respect to collective bargaining in the 
Federal sector, and the Office of General Counsel started a 
partnership with them, partly in the context of the Executive 
Order, but since then, we do joint training with them on the 
front line, but we also work with the FMCS in interventions in 
particularly troubled relationships. But, we make a good team 
and that kind of training, I believe, is extremely helpful.
    Senator Portman. That is good for the Committee to know. 
Again, I believe that it is very useful, not in every case, but 
more training, probably, to understand the consequences of 
going through it, and having the option to pull back if you 
feel like you need full-blown litigation.
    Ms. Clark. Right.
    Senator Portman. That helps. On the morale issue, looking 
at all this data, it is a little confusing to me, because you 
have this latest survey. Last year, 2013 finds a drop, 
actually, in employee satisfaction as it relates to what is 
called ``performance-based rewards and advancement,'' and that 
number was not very high to begin with. You had a 57.7 there. 
What would that be, a ``C''?
    Ms. Clark. Yes.
    Senator Portman. So, what accounts for that apparent 
disconnect? Otherwise, since 2009, you seem to have had a 
positive impact on the culture there. There have been 
improvements in employee satisfaction. And yet, ``performance-
based rewards and advancement'' seems to be flat and going down 
a little bit. What do you think about that? What do you think 
it is due to?
    Ms. Clark. I think there is a general issue throughout 
government, and I see it in real life at our agency, and that 
there has been a limit on the extent to which we can reward 
employees for their performance.
    In our agency, or the part that I am responsible for, for 
example, we have a performance management system that is 
quantifiable and objective in terms of productivity, 
timeliness, and quality. Our staff is measured that way. Our 
managers are measured on the aggregate performance of the 
people they supervise. It is all by the numbers. They do a 
great job. They exceed their goals.
    But, we have very limited ability to reward them for their 
exceptional service. And while thank yous help, it also helps 
to be rewarded through the performance award system and we have 
not been in a position to offer financial awards for some time.
    And in terms of advancement, I am hopeful that our survey 
will look better next year in that regard. We are in a position 
where we have done a lot of developmental activities, employee 
development, developing new leaders. So, I am hopeful that 
there will be some better results there. But, I do believe a 
real problem has been our inability to reward employees in a 
tangible way for their exceptional performance.
    Particularly in this case, our agency is much smaller than 
it was in the past, and while we have many new employees, most 
people remember a time when ratios of cases filed to agents 
were much lower, maybe even 50 percent lower than what an agent 
is expected to do now. So, they are under a lot of pressure and 
we have a limited ability to reward them for their exceptional 
performance under pressure.
    Senator Portman. Yes. In your testimony, you talk about 
wanting to provide more advancement opportunities. I assume 
that means trying to manage the people you have more 
effectively----
    Ms. Clark. Yes.
    Senator Portman [continuing]. To create some openings and 
to promote people who have shown through performance reviews 
that they are doing exceptional work.
    I would say the budget issues are going to be tough here on 
everything, but Fiscal Year 2013, direct obligations: $23.4 
million; Fiscal Year 2014, direct obligations estimated to be 
$25.5 million. Some agencies would die for that percentage 
increase. And I know that the personnel budget is huge--about 
75 percent of your budget--but there are agencies that are 
actually freezing or reducing employee numbers and you are 
talking about a 14 percent increase and a 25 percent increase 
from staffing levels in 2009. I would like to ask one question 
and then I will turn it back to the Chairman. Thanks for your 
time. Do you think that is necessary and justifiable?
    Ms. Clark. The budget we have now is absolutely necessary. 
It provides an opportunity for us to increase our staffing, 
which is one of the best ways we have to allow our employees a 
more manageable workload.
    For my part, the allocation that is provided to the Office 
of General Counsel, from the very beginning and continuing, 
will be directed toward hiring at the front line, hiring at the 
regional office level for field agents. I believe that is the 
right thing to do. In addition to that, we have been building a 
developmental process that allows for our front line agents to 
be trained, but also for our senior agents to develop their 
leadership potential and be in a position to take on the 
managers' roles in those offices.
    But, I think, with respect to the funding, we have gotten 
by with a very limited staff and done as well as we have for 
the past 5 years primarily because so many of our employees who 
had been with the agency for a long time, some from the very 
beginning--hung in there and were in a very good position to 
make the system work, even by being understaffed. This increase 
allows us to rebuild our staffing to a level that hopefully 
will allow us to sustain this kind of performance into the 
future.
    And I do believe that the increase was warranted, 
particularly in light of the fact that we were so severely cut 
well before the budget cuts that occurred over the last several 
years. So, we have been restored, but probably to a level that 
is still below the level that most agencies are at now.
    Senator Portman. I thank you for that answer. Mr. Chairman, 
I have no other questions for the nominee, but I will listen to 
yours we appreciate your service, Ms. Clark, since 2009, and we 
hope you will continue to focus on not just reducing the 
backlog, but improving the morale and making the agency work 
well for management and labor representatives. Thanks.
    Ms. Clark. Thank you.
    Senator Tester. Thank you, Senator Portman.
    Julia, first of all, I want to say, thank you for your 
service and I am very pleased of your willingness to serve 
another stretch in this job. And I hope to get you moving 
sooner than later through the pipeline.
    But, getting back to my statement, you have been in the 
position for 5 years. What makes you want to go back and do it 
again?
    Ms. Clark. Five years goes by faster than you think, maybe, 
and I do not think it is just because of my young age. We have 
a lot to do, and I can say that in the past 5 years, we have 
just now gotten to a level of functioning so that we are not 
racing at a breakneck speed but can actually begin laying a 
foundation that will be solid enough to sustain this 
organization, this part of this organization, well into the 
future. We have great plans and much still to accomplish.
    To Senator Portman's point, coming from the private sector 
before I took this job, I was and still am a very strong 
believer in the role of this agency in facilitating the parties 
that come to us and helping them resolve their differences and 
move on to do the public interest. There is more that we can do 
in that regard and I really would welcome the opportunity to 
continue to do it.
    Senator Tester. Senator Portman talked about the backlog, 
and you have done a great job in reducing that backlog. Can you 
give me an idea on any initiatives you are working on at this 
point in time or plan to work on that will continue to improve 
the timeliness of management of cases?
    Ms. Clark. In terms of timeliness, this is the highest 
priority for me and others in our agency. It is my view that 
resolving disputes quickly so that the parties can get back to 
their work is what needs to happen.
    Some of what we are doing in terms of timeliness is just 
pure scientific facts. We need to continue to move our 
resources to the front line because that is where it happens. 
We need to continue to train our workforce. We are also 
involved in some pilot programs to look at our case processes 
and find ways to move them along more quickly. We are 
developing initiatives.
    In fact, today, several employees that might have liked to 
be here just to see you and listen to you are not here because 
we are engaged in some intensive training of all of our 
employees, again, on alternative dispute resolution techniques, 
and in particular, the art and science of listening and finding 
resolutions that serve the public interest, but also train the 
people who come before us so that maybe they will be able to 
resolve their own problems the next time.
    In addition to that, we are developing our use of online 
meetings that will facilitate taking witness statements, 
negotiating settlements, prehearing conferences in real time. 
That saves a lot of time in terms of sending witness 
statements, affidavits to be signed, documents back and forth, 
and I think that will make some tremendous improvements, as 
well.
    Senator Tester. Thank you. Can you talk a little bit about 
hiring and retention and what trends you have seen in these 
areas?
    Ms. Clark. I think our agency has a tremendous retention 
rate. The people who come to this agency have a commitment and 
an understanding of what they do as being fundamental to good 
government. So, our retention rates are good. I think that we 
understand how the work gets done and who is really responsible 
for it. So, I think that has actually been one of our strongest 
points.
    Senator Tester. How about transparency? What role does it 
play in your work?
    Ms. Clark. Transparency--well, that has been also very 
important to the way I wanted to do business. All of our case 
handling manuals, every guidance, every process that our field 
agents follow are published and online in the most accessible 
format, hyperlinked to our statutes, our decisions, so that 
anyone who comes before our agency can follow along and 
understand what our agents are doing, the policies that we 
follow, and the way we exercise our judgment and discretion.
    Senator Tester. Before coming to the FLRA, you spent your 
career as a trial attorney at the Department of Justice. How 
has this experience helped you in your role as General Counsel?
    Ms. Clark. That was my first job out of law school, and I 
think the first thing I learned about government through being 
at the Department of Justice is the incredible responsibility, 
the incredible authority, and the incredible power of the 
Federal Government and what an enormous responsibility that is 
when you are put in the position of carrying out a law passed 
by Congress, and in particular, a prosecutorial function. The 
Justice Department was a tremendous training ground for a 
lawyer and I am really very fortunate to have had that 
experience and to be able to bring it to the role that I play 
now.
    Senator Tester. And now you have spent 5 years as General 
Counsel. What lessons from that service will shape your job 
over your next tenure?
    Ms. Clark. I think the most important lesson that I have 
learned as being General Counsel has been the importance that 
the civil service, that career staff play in the functioning of 
government and upholding the laws and the Constitution. The 
career staff at our agency are some of the most bright, 
dedicated, open, flexible, adaptable people I have ever run 
across, and their ability--many of them, having been there 
since the agency was created, working under every 
Administration since the agency was created--their ability to 
come to me with well thought out plans, to answer the questions 
that I had and the questions I should have had, was just a 
remarkable experience and I will thoroughly enjoy working with 
them in the future.
    And the other important lesson that I wanted to reflect on 
is that while I had been a union representative as a labor 
lawyer for many years of my life, I had been a union member, I 
have been a management representative, but I think that I most 
fully appreciated the importance of a unionized workplace in 
terms of offering constructive and helpful information when I 
took this job. And I would like to say that the union at our 
agency has been incredibly influential in terms of helping me 
understand a direction, letting me know when I have made a 
mistake, and I have had that wonderful experience of deciding 
that it is not a sign of weakness to acknowledge a mistake and 
take a different direction.
    So, I would say those two things, the incredible career 
service and also the value of having an independent union in 
the workplace.
    Senator Tester. And, finally, and we do hope that your 
confirmation will occur quickly, but if you could, as concise 
as you can, talk about what your short-term and long-term 
priorities are going to be for the FLRA over the next while 
that you are in this position.
    Ms. Clark. All right. I think ongoing, both short-term and 
long-term: succession planning. Those wonderful career 
employees that I have been talking about, well, they are going 
to retire, and many of them soon. We have an employee 
development, leadership development program in place, and now 
it is not just ad hoc but it is a systematic program and it 
will be ongoing.
    The other longer-term priority is to reduce our case 
processing time. Right now, our performance time targets are 
120 days. That is of fairly recent origin. That is the time 
target that was in place when I took this job. But for the most 
time in our history, the time targets in the Office of General 
Counsel were 90 days and the performance against that target 
was 85 percent. As I said earlier in my remarks, when I came to 
this job, we were only hitting the target, 120-day target, 49 
percent of the time. With current staffing, we have been able 
to move up to 68 percent of the time. Yet, it is my firm belief 
that a 90-day time target is really what is in the best 
interest of the public. So, finding a way with the resources we 
have to reduce our time target to 90 days and to perform well 
against that target is the long-term priority.
    Senator Tester. Senator Portman, do you have any further 
questions?
    Senator Portman. [Shakes head no.]
    Senator Tester. OK. I just want to thank you for your 
testimony. I want to thank you for your clarity in answering 
the questions. As I said when I opened up my questions, I 
certainly appreciate your commitment to public service and 
thank you for wanting to sign up again for this job.
    With that, Senator Portman, do you have any closing 
comments?
    Senator Portman. No, just that we appreciate the 
opportunity to be here as surrogates of the Chair and Ranking 
Member of the full Committee. Our Subcommittee on the 
Efficiency and Effectiveness of Federal Programs and the 
Federal Workforce, as you know, is very involved in the issue 
of management of the Federal workforce, so I think it is 
appropriate we are following these issues like the backlog 
issue.
    We appreciate your coming in today, and again, we 
appreciate your service since 2009. We hope you will be able to 
continue to make progress. As you said, there are some clear 
successes you have had in terms of clearing backlogs, but there 
is also plenty of work to be done----
    Ms. Clark. Yes.
    Senator Portman [continuing]. Including keeping the morale 
up and ensuring we have, as you said earlier, the maximum 
opportunity for people to resolve their issues and get back to 
work.
    Ms. Clark. Right.
    Senator Portman. So, thank you, Ms. Clark.
    Ms. Clark. Thank you.
    Senator Tester. Thank you, Senator Portman.
    It is fair to say now that the hearing record will remain 
open for 24 hours for any additional comments and for any 
questions that might be submitted for the record.
    With that, once again, we thank you, Julia, for your 
willingness to serve, and this hearing is adjourned.
    [Whereupon, at 3:10 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 

                                 <all>

</pre></body></html>
